APPLICATION AND
SOLICITATION
DISCLOSURE
VISA CLASSIC

Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

9.90%

APR for Balance Transfers

9.90%

APR for Cash Advances

9.90%

How to Avoid Paying Interest on
Purchases

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.

For Credit Card Tips from the
Consumer Financial Protection Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Transaction Fees
- Foreign Transaction Fee
Penalty Fees
- Late Payment Fee
- Returned Payment Fee

1.00% of each multiple currency transaction in U.S. dollars
0.80% of each single currency transaction in U.S. dollars
Up to $25.00
Up to $20.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)."
Effective Date:
The information about the costs of the card described in this application is accurate as of: November 10, 2017
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
For California Borrowers, the Visa Classic is a secured credit card. Credit extended under this credit card
account is secured by various personal property and money including, but not limited to: (a) any goods you
purchase with this account, (b) any shares you specifically pledge as collateral for this account on a separate
Pledge of Shares, (c) all shares you have in any individual or joint account with the Credit Union excluding
shares in an Individual Retirement Account or in any other account that would lose special tax treatment under
state or federal law, and (d) collateral securing other loans you have with the Credit Union excluding dwellings.
Notwithstanding the foregoing, you acknowledge and agree that during any periods when you are a covered
borrower under the Military Lending Act your credit card will be secured by any specific Pledge of Shares you
grant us but will not be secured by all shares you have in any individual or joint account with the Credit Union.
For clarity, you will not be deemed a covered borrower if: (i) you establish your credit card account when you are
not a covered borrower; or (ii) you cease to be a covered borrower.
Other Fees & Disclosures:
Late Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less, if you are five or more days late in making a
payment.
Returned Payment Fee:
$20.00 or the amount of the required minimum payment, whichever is less.

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

03111886-MXC10-P-1-090717 (MXC101-E)

Card Replacement Fee:
$10.00.
Document Copy Fee:
$5.00.
Pay-by-Phone Fee:
$10.00.
Rush Fee:
$15.00.
Statement Copy Fee:
$5.00.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

03111886-MXC10-P-1-090717 (MXC101-E)

